APPENDIX A — Orders of the Court of Appeals
1. Case:18-17049, 10/30/2019, ID:11483834
DktEntry: 24, page 1 of 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
OCT. 30 2019
TOM JENSEN,
Plaintiff-Appellant

No. 18-17049

v.

D.C. No. 3:18-cv-04114MMC, Northern District
of California,
San Francisco

HANNAH LEE
BLUMENSTIEL, U.S.
Bankruptcy Court,
Northern District of
California; et al.,
Defendants-Appellees

ORDER

Before: CLIFTON, N.R. SMITH and FRIEDLAND,
Circuit Judges.
Appellant has filed a combined motion for
reconsideration and motion for reconsideration en
banc (Dkt. Entry No. 21).
The motion for reconsideration is denied and the
motion for reconsideration en banc is denied on
behalf of the court. See 9th Cir. R. 27-10; 9th Cir.
Gen. Ord. 6-11.
No further filings will be entertained in this
closed case.

la

2. Case:18-17049, 06/24/2019, ID:11342576
DktEntry: 20, page 1 of 2
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
JUN 24 2019
TOM JENSEN,
Plaintiff-Appellant

No. 18-17049

v.

D.C. No. 3:18-cv-04114MMC, Northern District
of California,
San Francisco

HANNAH LEE
BLUMENSTIEL, U.S.
Bankruptcy Court,
Northern District of
California; et al.,
Defendants-Appellees

ORDER

Before: CLIFTON, N.R. SMITH and FRIEDLAND,
Circuit Judges.
Appellant's motion to file a sur-reply (Docket
Entry No. 18) is granted. The Clerk shall file the
sur-reply contained within the filing at Docket Entry
No. 18.
Appellees' motion for summary affirmance
(Docket Entry No. 12) is granted. Appellee
Blumenstiel is entitled to judicial immunity for her
decision to remove appellant from the courtroom
during the attorney disciplinary proceeding, because
her actions were "judicial" in nature and were not
taken in the clear absence of all jurisdiction." Mullis
v. U.S. Bankr. Ct. for Dist. Of 1V o., 828 F.2d 1385,

2a

1394 (9th Cir. 1987). Thus appellant's claims against
Judge Blumenstiel fail.
Appellant lacks Article III standing to bring his
remaining claim. He has not alleged any concrete
and particularized injury that could be remedied by
ordering appellees to accept and consider his
complaint of attorney misconduct. See Robins v.
Spokeo, Inc., 867 F.3d 1108, 1111 (9th Cir. 2017).
All other pending motions are denied as moot.
AFFIRMED

3a

3. Case: 18-17049, 02/08/2019, ID: 1114285
DktEntry: 9, Page 1 of 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
FEB 8 2019
TOM JENSEN,
Plaintiff-Appellant

No. 18-17049

v.

D.C. No. 3:18-cv-04114MMC, Northern District
of California,
San Francisco

HANNAH LEE
BLUMENSTIEL, U.S.
Bankruptcy Court,
Northern District of
California; et al.,
Defendants-Appellees

ORDER

Appellees Judge Hannah Lee Blumenstiel and
Judge James Donato's unopposed motion (Docket
Entry No. 8) for an extension of time is granted.
The answering brief is now due April 5, 2019. The
optional reply brief is due within 21 days of service
of the answering brief.
All other pending motions will be addressed by
separate order.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF THE COURT
By: Caitlin Zittkowski
Deputy Clerk
Ninth Circuit Rule 27-7
4a

APPENDIX B - Judgment and Orders of the
District Court:
1. Case 3:18-cv-04114-MMC Document 39
Filed 09/21/18 Page 1 of 1
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 18-cv-04114MMC

TOM JENSEN,
Plaintiff
v.

JUDGMENT IN A
CIVIL CASE
Re: Dkt. No. 38

HANNAH L.
BLUMENSTIEL et al.,
Defendants

( ) Jury Verdict. This action came before the
Court for a trial by jury. The issues have been tried
and the jury has rendered its verdict.
(X) Decision by Court. This action came to trial
or hearing before the Court. The issues have been
tried or heard and a decision has been rendered.
The above-titled action is hereby DISMISSED.
IT IS SO ORDERED AND ADJUDGED
Dated: 9/21/2018
Susan Y. Soong, Cler
/s/ Tracy Geiger
Tracy Geiger
Deputy Clerk

5a

2. Case 3:18-cv-04114-MMC Document 38
Filed 09/20/2018 Page 1 of 1
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 18-cv-04114MMC

TOM JENSEN,
Plaintiff
v.

ORDER DISMISSING
ACTION;
DIRECTIONS TO
CLERK

JUDGE HANNAH L.
BLUMENSTIEL, U.S.
Bankruptcy Court,
Northern District of
California, et al.,
Defendants

By order filed August 27, 2018, the Court
dismissed plaintiff Tom Jensen's First Amended
Complaint, and afforded plaintiff leave to file, no
later than September 14, 2018, a Second Amended
Complaint. Plaintiff has not filed a Second Amended
Complaint within the time provided.
Accordingly, the above-titled action is hereby
DISMISSED.
The Clerk of Court is directed to close the file.
IT IS SO ORDERED.
Dated: September 20, 2018
/s/ Maxime M. Chesney

MAXINE M. CHESNEY
United States District Judge

6a

3. Case 3:18-cv-04114-MMC Document 37
Filed 08/27/2018 Page 1 of 3
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 18-cv-04114MMC

TOM JENSEN,
Plaintiff
v.

ORDER DISMISSING
FIRST AMENDED
COMPLAINT;
AFFORDING
PLAINTIFF LIMITED
LEAVE TO AMEND

JUDGE HANNAH L.
BLUMENSTIEL, U.S.
Bankruptcy Court,
Northern District of
California, et al.,
Defendants

By order filed July 31, 2018, the Court directed
plaintiff Tom Jensen to show cause why the
operative complaint, the First Amended Complaint
("FAC"), should not be dismissed. Before the Court is
plaintiffs Response, filed August 3, 2018, as well as
two addendums thereto, filed, respectively, August 6,
2018, and August 17, 2018. The Court having read
and considered plaintiffs filings, the stay of
proceedings issued July 31, 2018, is hereby LIFTED,
and the Court hereby rules as follows.
The FAC consists of three Claims, each based on
a claim that plaintiffs federal constitutional rights
have been violated. In Claims 1 and 2, plaintiff
seeks, respectively, declaratory relief and injunctive
relief, in each instance against Bankruptcy Judge
Hannah L. Blumenstiel, based on plaintiffs
allegation that his First Amendment rights were

7a

violated when he sought to attend a hearing in In re
Schwartz, a "disciplinary proceeding" pending before
Judge Blumenstiel, but was required to leave the
courtroom when she ruled the proceeding was closed
to the public. (See FAC ¶¶ 8, 15, 27, 29.) In Claim 3,
plaintiff seeks injunctive relief against District
Judge James Donato and Miles Ehrlich, the Chairman of the Standing Committee on Professional
Conduct, based on plaintiffs allegation that his First
Amendment rights were violated when they did not
respond to a "complaint of attorney misconduct" he
sent them. (See FAC TT 34-35.) In its order to show
cause, the Court directed plaintiff to show cause why
Claims 1 and 2 were not subject to dismissal on the
ground that Judge Blumenstiel is entitled to
absolute judicial immunity and why Claim 3 was not
subject to dismissal for lack of standing.
Plaintiff does not address Claim 3 in his
Response or in either addendum thereto.
Accordingly, for the reasons stated in its July 31
order, the Court finds plaintiff lacks standing to
bring Claim 3, and Claim 3 is subject to dismissal.
With respect to Claims 1 and 2, plaintiff argues
Judge Blumenstiel is not entitled to judicial immunity for the asserted reason that Mullis v. U.S.
Bankruptcy Court, 828 F.2d 1385 (9th Cir. 1997),
cited by the Court in its order to show cause, is
distinguishable.' The Court disagrees. In Mullis, the
1 Plaintiff also argues that the Ninth Circuit incorrectly
decided Mullis. and, consequently, the Court should not follow
it. This Court, however, is bound by Mullis. See Hart v.
Massanari, 266 F.3d 1155, 1170-71 (9th Cir. 2001) (holding
"[blinding authority must be followed unless and until
overruled by a body component to do so"; further holding
"circuit law . . . binds all courts within a particular circuit").

8a

Ninth Circuit held that a bankruptcy judge, who was
alleged to have violated the plaintiffs First
Amendment rights, was entitled to absolute judicial
immunity from claims for injunctive and declaratory
relief, for the reason that the claims were based on
the judge's performance of "judicial acts." See id. at
1388, 1394. As plaintiffs claims against Judge
Blumenstiel are solely based on court rulings she is
alleged to have made, Mullis bars Claims 1 and 2
and is not distinguishable. Further, contrary to
plaintiffs argument, he does not, if unable to pursue
a civil rights deprivation case against Judge
Blumenstiel, lack a remedy to seek relief from the
order closing the subject disciplinary proceeding to
the public. Rather, plaintiff may seek review of the
court ruling by using the "carefully structured
procedures" created by Congress, such as by "petitioning for [an] extraordinary writ[ ]," see id. at 1394;
see, e.g., Phoenix Newspapers, Inc. v. U.S. District
Court, 156 F.3d 940 (9th Cir. 1987) (considering
merits of petition for writ of mandamus filed by
members of press who sought access to sealed transcripts of hearings conducted in federal case), for
example, by filing with the district court, in In re
Schwartz, Case No. 18-00302, a petition for a writ of
mandamus.
Accordingly, for the reasons stated above and in
its July 31 order, the Court finds Judge Blumenstiel
is entitled to absolute judicial immunity, and Claims
1 and 2 are subject to dismissal.
CONCLUSION
Plaintiffs FAC is hereby DISMISSED and plaintiff
is hereby afforded leave to amend to allege, if he can
do so, a viable claim arising from the events
9a

described in the FAC. Any such Second Amended
Complaint shall be filed no later than September 14,
2018.
IT IS SO ORDERED.
Dated: August 27, 2018
Maxime M. Chesney
MAXINE M. CHESNEY
United States District Judge
/s/

10a

Additional material
from this filing is
available in the
Clerk's Office.

